A
February 25, 2021

CLD-103

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 20-3029
MITCHELL N. NICHOLAS, Appellant
VS.
PEOPLE OF THE VIRGIN ISLANDS
(D.V.I. Civ. No. 3-13-cv-00075)
Present:

RESTREPO, MATEY and SCIRICA. Circuit Judges
Submitted are:
(1)

Appellant’s request for a certificate of appealability under 28 U.S.C.
§ 2253(c)(1); and

(2)

Appellee’s response in opposition thereto

in the above-captioned case.
Respectfully,

Clerk

ORDER
Appellant’s request for a certificate of appealability is denied because jurists of
reason would not debate the District Court’s denial of his motion for relief under Fed. R.
Civ. P. 60(b). See 28 U.S.C. § 2253(c)(2); Buck v. Davis. 137 S. Ct. 759, 777 (2017). To
the extent that appellant raised substantive claims for relief in his Rule 60(b) motion, jurists

of reason would not debate the District Court4 s conclusion that his Rule 60(b) constituted
an unauthorized second or successive habeas petition. See Gonzalez v. Crosby, 545 U.S.
524, 530-31 (2005). To the extent that appellant’s Rule 60(b) motion and related filings
can be read to raise arguments addressed to the integrity of his habeas proceeding, jurists
of reason would not debate whether appellant stated any grounds for Rule 60(b) relief. See
Buck. 137 S. Ct. at 777.

By the Court,

/s/Paul B. Matey
Circuit Judge
Dated:
SLC/cc:

March 26, 2021
Mitchell N. Nicholas
Ian S.A. Clement, Esq.
0|-4

A True Copy:^° 'rjs'.iirO
U. 1st’

t

Patricia S. Dodszuweit, Clerk
Certified Order Issued in Lieu of Mandate

2

r-

Case: 3:13-cv-00075-WAL-GWC Document#: 79 Filed: 09/14/20 Page 1 of 2

;y <8
DISTRICT COURT OF THE VIRGIN ISLANDS
DIVISION OF ST. THOMAS AND ST. JOHN
MITCHELL N. NICHOLAS,
Petitioner,
v.
PEOPLE OF THE VIRGIN ISLANDS,
Respondent.

)
)
)
)
)
)

Civil Action No. 2013-0075

)
)
)

Appearances:
Mitchell N. Nicholas, Pro Se
Dionne G. Sinclair, Esq.,
St. Thomas, U.S.V.I.
For Respondent
ORDER
UPON CONSIDERATION of Petitioner Mitchell Nicholas’ (“Petitioner”) “Motion
Pursuant to Fed R. Civ. P. Rule 60(b)(6), 28 U.S.C.A.” (“Motion”) (Dkt. No. 59); Magistrate Judge
George W. Cannon Jr.’s Report and Recommendation (“R&R”) (Dkt. No. 69); Petitioner’s
objection thereto (Dkt. No. 70); Petitioner’s “Motion for an Evidentiary Hearing” (Dkt. No. 65);
Petitioner’s “Motion for Emergency Hearing” (Dkt. No. 77); and Petitioner’s “Motion for an
Urgent Evidentiary Hearing Under Fed. R. Civ. P. 60(b)(3),(6)” (Dkt. No. 78); and for the reasons
set forth in the accompanying Memorandum Opinion filed contemporaneously herewith; it is
hereby
ORDERED that Magistrate Judge Cannon’s R&R (Dkt. No. 69) is ACCEPTED on the
sole basis that the Court lacks jurisdiction over this matter; and it is further
ORDERED that Petitioner’s Motion (Dkt. No. 59) is DENIED; and it is further

Case: 3:13-cv-00075-WAL-GWC Document#: 79 Filed: 09/14/20 Page 2 of 2

ORDERED that Petitioner’s “Motion for an Evidentiary Hearing” (Dkt. No. 65);
Petitioner’s “Motion for Emergency Hearing” (Dkt. No. 77); and Petitioner’s “Motion for an
Urgent Evidentiary Hearing under Fed. R. Civ. P. 60(b)(3),(6)” (Dkt. No. 78) are DENIED; and
it is further
ORDERED that the Clerk of Court shall provide a copy of this Order and its
accompanying Memorandum Opinion to Petitioner by certified mail, return receipt requested.
SO ORDERED.
Date: September 14, 2020

/s/
WILMA A. LEWIS
Chief Judge

Case: 3:13-cv-00075-WAL-GWC Document #: 80 Filed: 09/14/20 Page 1 of 5

;y S
DISTRICT COURT OF THE VIRGIN ISLANDS
DIVISION OF ST. THOMAS AND ST. JOHN
MITCHELL N. NICHOLAS,

)
)
)
)
)
)

Petitioner,
v.

PEOPLE OF THE VIRGIN ISLANDS,

Civil Action No. 2013-0075

)
)
)

Respondent.
Appearances:
Mitchell N. Nicholas, Pro Se
Dionne G. Sinclair, Esq.,
St. Thomas, U.S.V.I.
For Respondent

MEMORANDUM OPINION
Lewis, Chief Judge
THIS MATTER comes before the Court on Magistrate Judge George W. Cannon, Jr.’s
Report and Recommendation (“R&R”) (Dkt. No. 69), in which the Magistrate Judge recommends
that Petitioner Mitchell Nicholas’ (“Petitioner”) “Motion Pursuant to Fed R. Civ. P. Rule 60(b)(6),
28 U.S.C.A.” (“Motion”) (Dkt. No. 59) should be denied. Petitioner has filed objections to the
R&R. (Dkt. No. 70). Also before the Court is Petitioner’s “Motion for an Evidentiary Hearing”
(Dkt. No. 65); Petitioner’s “Motion for Emergency Hearing” (Dkt. No. 77); and Petitioner’s
“Motion for an Urgent Evidentiary Hearing under Fed. R. Civ. P. 60(b)(3),(6)” (Dkt. No. 78). For
the reasons discussed below, the Court will accept the Magistrate Judge's R&R on the basis that
this Court lacks jurisdiction over this matter and deny Petitioner’s various motions for a hearing.

I.

BACKGROUND

Oh October 4, 2007, Petitioner was convicted by a jury in the Superior Court of the Virgin
Islands of First Degree Murder, in violation of 14 V.I.C. §§ 921 and 922(a)(1); Unauthorized

'

Case: 3:13-cv-00075-WAL-GWC Document#: 80 Filed: 09/14/20 Page 2 of 5

Possession of a Firearm During the Commission of a Crime of Violence, in violation of 14 V.I.C.
§ 2253(a); Assault in the First Degree, in violation of 14 V.I.C. § 295(1); and Unauthorized
Possession of Ammunition, in violation of 14 V.I.C. § 2256(a). Nicholas v. People of the Virgin
Islands, 2012 WL 2053537, at *3 (V.I. June 6, 2012). On December 7, 2007, Petitioner was
sentenced to life imprisonment for his conviction on Count One, First Degree Murder; twenty
years imprisonment for his conviction on Count Two, Unauthorized Possession of a Firearm
During the Commission of a Crime of Violence, to run concurrently with the sentence imposed for
Count One; and five years imprisonment for his conviction on Count Four, Unauthorized
Possession of Ammunition, to run consecutively to the sentences imposed for Counts One and
Two. (Dkt. No. 1-1 at 3). The Superior Court did not impose a separate sentence for Count Three,
Assault in the First Degree, deeming it merged with the offense charged in Count One. Id. On
appeal, the Virgin Islands Supreme Court reversed Petitioner’s conviction for Unauthorized
Possession of Ammunition and vacated its corresponding sentence, but affirmed his other
convictions and their corresponding sentences. Nicholas, 2012 WL 2053537, at *16.
On April 18, 2019, Petitioner filed the instant Motion seeking to vacate his convictions.
(Dkt. No. 59 at 6).1 Specifically, Petitioner argues that he is entitled to relief pursuant to Fed. R.
Civ. P. 60(b)(6); 28 U.S.C. § 2253(c)(1); 28 U.S.C. § 2254; the First, Second, Fourth, Fifth, Sixth,
Eighth, and Fourteenth Amendments of the Constitution; and Buck v. Davis, 137 S. Ct. 759 (2017).

i

Petitioner argues that “this matter starting from July 30, 2005 to the present resulted in a manifest
injustice occurring despite repeated showings of actual innocence . . . .” (Dkt. No. 59 at 2). He
contends that this Court “erred by not adjudicating [his] lack of subject matter jurisdiction claim
against itself for issuing the [outdated] and unrelated federal grand jury subpoena used by the
Federal Bureau of Investigations ... to falsely arrest [him] without an arrest or search warrant or
lack of probable cause....” Id. He concludes his Motion by reiterating his claim that he is innocent
and requesting that the Court vacate his remaining convictions or, in the alternative, hold an
evidentiary hearing. Id. at 6.
2

‘

Case: 3:13-cv-00075-WAL-GWC Document#: 80 Filed: 09/14/20 Page 3 of 5

Id. at 1. The Government opposes the Motion (Dkt. No. 62). In his R&R, Magistrate Judge Cannon
recommends that Petitioner’s Motion be denied in part because it is a successive habeas petition
(Dkt. No. 69 at 11).2
II.

STANDARD OF REVIEW

Parties may make “specific written objections” to a magistrate judge’s report and
recommendation “[wjithin 14 days after being served with a copy of the recommended
disposition.” See Fed. R. Civ. P. 72(b)(2); see also 28 U.S.C. § 636(b)(1) (“Within fourteen days
after being served with a copy, any party may serve and file written objections to such proposed
findings and recommendations as provided by rules of court.”).
When a party makes a timely objection, the district court “make[s] a de novo determination
of those portions of the report or specified proposed findings or recommendations to which
objection is made.” 28 U.S.C. § 636(b)(1)(C). Where the parties fail to file timely objections, there
is no statutory requirement that the district court review the R&R before accepting it. Anderson v.
United States, 2019 WL 1125816, at *1 n.l (M.D. Pa. Mar. 12, 2019) (citing Thomas v. Am, 474
U.S. 140, 149 (1985)). The Third Circuit has determined, however, that as a matter of good
practice, district courts should “afford some level of review to dispositive legal issues” raised in
an R&R under a plain error standard. Nava v. Frank, 4,88 F.3d 187, 196 (3dCir. 2007), as amended
(June 12, 2007). A plain error review involves a determination as to whether the R&R contains
any “clear” or “obvious” error affecting the Petitioner’s “substantial rights.” United States v.
Olano, 507 U.S. 725, 734 (1993).

2 The Magistrate Judge also considered the merits of Petitioner’s Motion, recommending that the
Motion be denied because, inter alia, Petitioner’s Motion is untimely; Petitioner failed to establish
that his attorney’s performance prejudiced him; and Petitioner has failed to demonstrate that the
circumstances entitle him to relief on his “actual innocence” claim. (Dkt. No. 69 at 13-23).
3

- 1

Case: 3:13-cv-00075-WAL-GWC Document#: 80 Filed: 09/14/20 Page 4 of 5

Here, the Magistrate Judge issued his R&R on September 5,2019. (Dkt. No. 69). However,
in his “Objection to Report and Recommendation,” Plaintiff asserts that he did not receive a copy
of the R&R until November 25, 2019 due to issues regarding a change of his address. (Dkt. Nos.
64, 70 at 1). Therefore, accepting Petitioner’s assertion as true, the fourteen-day period for raising
his objections expired on December 9,2019, thus making his objections—submitted on November
29, 2019—timely. Id. at 4. Accordingly, the Court will review the matter de novo.
III.

DISCUSSION

The Magistrate Judge recommends that the Court deny Petitioner’s Motion. (Dkt. No. 69).
In his R&R, the Magistrate Judge details why he believes Petitioner’s Motion fails on the merits.
Id. at 11-23. However, the Magistrate Judge also states that “[a]ll of [Petitioner’s] arguments
should fail for the simple reason that they are an attempt to gain relief via a successive habeas
petition.” Id. at 11. The Court agrees and thus finds that it lacks jurisdiction over this matter. The
Magistrate Judge’s R&R will be accepted on that basis only.
Petitioner is a state prisoner bringing his Motion under Fed. R. Civ. P. 60(b)(6); 28 U.S.C.
§ 2253(c)(1); 28 U.S.C. § 2254; the First, Second, Fourth, Fifth, Sixth, Eighth, and Fourteenth
Amendments of the Constitution; and Buck v. Davis, 137 S. Ct. 759 (2017). (Dkt. No. 56 at 1).
The Third Circuit has held that where an inmate is challenging the execution of a state sentence,
the inmate must proceed under 28 U.S.C. § 2254. See Coady v. Vaughn, 251 F.3d 480, 485 (3d
Cir. 2001). Pursuant to 28 U.S.C. § 2244(b)(3) and (4), before presenting a second or successive
habeas petition, a petitioner must obtain an order from the appropriate court of appeals authorizing
the district court to consider the petition. Blystone v. Horn, 664 F.3d 397, 412 (3d Cir. 2011) (“A
petitioner's failure to seek such authorization from the appropriate appellate court before filing a
second or successive habeas petition acts as a jurisdictional bar”) (citation and quotation omitted);

4

Case: 3:13-cv-00075-WAL-GWC Document #: 80 Filed: 09/14/20 Page 5 of 5

Benchoff v. Colleran, 404 F.3d 812, 813 (3d Cir. 2005) (finding that a challenge to the
administration of a state sentence was a successive petition under 2254 and that the district court
therefore did not have subject matter jurisdiction over it).
Petitioner has filed other 2254 petitions. (Dkt. Nos. 1,17, 73). Two such petitions were
already denied because Petitioner failed to obtain an Order from the Third Circuit authorizing the
Court to consider them. (Dkt. Nos. 17, 53, 73, 75). While Petitioner claims to bring the instant
Motion in part pursuant to Fed. R. Civ. P. 60(b), this purported basis for the Motion does not negate
the fact that Petitioner seeks to have the Court vacate his Superior Court convictions. In other
words, Petitioner is asserting “a federal basis for relief from a state court’s judgment of
conviction.” Gonzalez v. Crosby, 545 U.S. 524, 530 (2005); Pridgen v. Shannon, 380 F.3d 721,
727 (3d Cir. 2004) (holding that “when the Rule 60(b) motion seeks to collaterally attack the
petitioner's underlying conviction, the motion should be treated as a successive habeas petition.”).
Thus, the Court finds that Petitioner’s Motion is in reality a habeas petition—a successive one—
and Petitioner has again failed to obtain an Order from the Third Circuit authorizing the Court to
consider it. This failure acts as a “jurisdictional bar.” Horn, 664 F.3d at 412.
III.

CONCLUSION

For the reasons discussed above, the Court will accept the Magistrate Judge’s R&R (Dkt.
No. 69) on the sole basis that the Court lacks jurisdiction over this matter. In addition, the Court
finds that a hearing is not necessary for the adjudication of the matter, and will therefore deny
Petitioner’s motions for a hearing. (Dkt. Nos. 65, 77, 78).
An appropriate Order accompanies this Memorandum Opinion.
/s/
WILMA A. LEWIS
Chief Judge

Date: September 14, 2020

5

Case: 3:13-cv-00075-WAL-GWC Document#: 69 Filed: 09/05/19 Page 1 of 23

C
DISTRICT COURT OF THE VIRGIN ISLANDS
DIVISION OF ST. CROIX
Mitchell N. Nicholas,
Plaintiff,

Civil No. 2013-75

v.
People of the Virgin Islands,
Defendant.

TO:

Mitchell N. Nicholas, Pro Se
#1207937
Red Onion State Prison
P.O. Box 1900
Pound, VA 24279
Su-Layne Walker, Esq., Assistant Attorney General
Denise N. George, Esq., Acting Attorney General
Pamela R. Tepper, Esq., Solicitor General
34-38 Kronprindsens Gade
GERS Building, 2nd Floor
St. Thomas, U.S. Virgin Islands 00802
REPORT AND RECOMMENDATION
THIS MATTER is before the Court upon the Order (ECF No. 68) of Chief Judge Wilma

A. Lewis in 3:13-cv-00075 referring prisoner Mitchell N. Nicholas's "Motion Pursuant to Fed
R. Civ. P. Rule 60(b)(6), 28 U.S.C.A." (ECF No. 59) for a Report and Recommendation. For the
reasons set forth below, the undersigned RECOMMENDS that the motion be DENIED.
Further, it is RECOMMENDED that the District Court DENY Nicholas a Certificate of
Appealability.

Case: 3:13-cv-00075-WAL-GWC Document #: 69 Filed: 09/05/19 Page 2 of 23

Nicholas v. People of the Virgin Islands
Civil No. 3:13-cv-0007S
Report and Recommendation
Page 2

I.

RELEVANT BACKGROUND
Nicholas challenges his 2007 conviction for first degree murder of Georgia Gottlieb

and related charges in the Superior Court of the Virgin Islands.1
On July 29, 2005, Gottlieb—who was Nicholas’s girlfriend and the mother of D.N.,
their then-minor son—failed to report to work. Throughout the day, however, her friends
and relatives, including Gottlieb’s niece, Charmaine Joseph, received telephone calls from
Gottlieb’s cell phone, with the caller always remaining silent. Later that day, as a result of
Joseph contacting the 9-1-1 emergency operator, the Virgin Islands Police Department
("VIPD") discovered Gottlieb's body in her apartment with a single gunshot wound to the
back of her head. D.N. was not in the apartment, and his whereabouts were unknown.
That same day, the Federal Bureau of Investigation ("FBI"), assisting at the request of
the VIPD, obtained Gottlieb’s cell phone records and advised the VIPD that a call had been
made from her cell phone to the Bella Vista Hotel. VIPD visited the hotel that evening but
could not confirm whether Nicholas was a guest of the hotel as no personnel were on duty.
The next morning, the VIPD, accompanied by FBI agents, returned to the hotel
without a warrant and were advised by the front desk clerk that Nicholas and a minor boy
had checked into the hotel the morning of July 29,2005. The VIPD gained access to Nicholas’s
hotel room with the use of both a master key and a battering ram (because a chain had been
latched across the door). In the room, the VIPD found a boy—later identified as D.N.—and

1 Most of the factual recitation of events surrounding the underlying crimes can be found in Nicholas
v. People of the Virgin Islands, 56 V.I. 718 (2013).

Case: 3:13-cv-00075-WAL-GWC Document #: 69 Filed: 09/05/19 Page 3 of 23

Nicholas v. People of the Virgin Islands
Civil No. 3:13-cv-0007S
Report and Recommendation
Page 3

Nicholas, who was lying in bed with a gun in his hand. During a search of the room, the VIPD
recovered Gottlieb's cell phone. Later, police discovered Gottlieb’s vehicle parked in a high
school parking lot.
At trial, the government introduced testimony regarding the phone calls, the
discovery of Gottlieb's body and the search of Nicholas’s hotel room. The government also
introduced testimony from Joseph, Gottlieb’s neighbors, and five of Gottlieb's friends.
Finally, D.N. testified as a witness on behalf of the government. Nicholas did not present any
evidence.
On October 4, 2007, the jury found Nicholas guilty of first-degree murder,
unauthorized possession of a firearm during the commission of a crime of violence, assault
in the first degree and unauthorized possession of ammunition. These charges were in
violation of V.I. Code Ann. tit. 14, §§ 921, 922(a) (1), V.I. Code Ann. tit. 14, § 2253(a), V.I. Code
Ann. tit. 14, § 295(1), and V.I. Code Ann. tit. 14, § 2256(a). See Judgment and Commitment
("the Judgment") (ECF No. 32-1 at 5-8).
On December 7, 2007, Nicholas filed a notice of appeal pro se with the Virgin Islands
Supreme Court. On appeal, Nicholas argued that (1) the evidence was insufficient to sustain
his convictions for first-degree murder and unlawful possession of ammunition; (2) the
Superior Court erred in ruling exigent circumstances supported the warrantless search of
Nicholas’s person and his hotel room; (3) the Superior Court erred in permitting lay witness
testimony concerning numerous issues, including their beliefs that Nicholas killed Gottlieb,

Case: 3:13-cv-00075-WAL-GWC Document #: 69 Filed: 09/05/19 Page 4 of 23

Nicholas v. People of the Virgin Islands
Civil No. 3:13-cv-00075
Report and Recommendation
Page 4

Gottlieb’s fear of Nicholas, and Nicholas's behavior and personality; and (4] the statute
criminalizing possession of a firearm, V.I. Code Ann. tit. 14, § 2253(a), was unconstitutional
because it impermissibly restricted the Second Amendment’s right to keep and bear arms.
The Virgin Islands Supreme Court reversed Nicholas's conviction for unlawfully possessing
ammunition but affirmed the Judgment in all other respects. Nicholas v. People of the Virgin
Islands, 56 V.I. 718 [2012).
On June 18, 2012, Nicholas filed a petition for rehearing. (ECF No. 33-3). The Virgin
Islands Supreme Court denied the petition on July 10, 2012. [ECF No. 33-4). Nicholas
subsequently filed a petition for a writ of certiorari in the United States Court of Appeals for
the Third Circuit.2 He presented the following questions for review: [1) whether the Virgin
Islands Supreme Court failed to subject the Virgin Islands gun licensing statute, V.I. Code Ann.
tit. 23, § 454[3), to intermediate scrutiny when addressing Nicholas's "Second Amendment
based challenge;" (2) whether V.I. Code Ann. tit. 23, § 454(3) is unconstitutional; and (3)
whether Nicholas's conviction for first-degree murder is invalid as a matter of law due to the
Virgin Islands Supreme Court’s alleged misconstruction of the standard for proving
prejudice in plain error challenges. On June 20, 2013, the Third Circuit denied certiorari
review.

2 At the time, pursuant to Seafarers lnt'l Union v. Gov’t of the V.I, 767 F.3d 193, 202-04 (3d Cir. 2014),
the Third Circuit retained certiorari jurisdiction over final decision of the Virgin Islands Supreme Court for all
cases commenced in the Superior Court prior to December 28, 2012. Last year, the Third Circuit abrogated
Seafarers, concluding that Congress terminated the Third Circuit’s jurisdiction over all certiorari petitions
from final decisions of the Virgin Islands Supreme Court that were filed after December 28,2012, rather than
over all suits initiated in the Superior Court on or after that date. See Vooys v. Bentley, 901 F.3d 172,175 (3d
Cir. Aug. 21, 2018), cert, denied, 139 S. CL 1600 (Apr. 22, 2019).

Case: 3:13-cv-00075-WAL-GWC Document #: 69 Filed: 09/05/19 Page 5 of 23

Nicholas v. People of the Virgin Islands
Civil No. 3:13-cv-00075
Report and Recommendation
Page 5

Nicholas then filed a petition pursuant to 28 U.S.C. § 2254 (the "2254 petition") in the
District Court on July 30, 2013, seeking habeas relief. (ECF No. 1). While that petition was
still pending, he filed a "Rule 60B Motion" on July 24, 2014. (ECF No. 21). That motion
reasserted the grounds alleged in his 2254 petition. Specifically, Nicholas asked the Court to
vacate the Superior Court's judgment based on his allegations that the subpoenas used to
obtain cellular records in his case were invalid; the agents and police officers who arrested
and searched him lacked the authorization of a warrant; and the violation of his Miranda
rights. On March 27, 2015, the District Court denied both the 2254 petition and the "Rule
60B Motion," the latter of which was characterized as a motion to vacate. (ECF Nos. 53 and
55). On April 9, 2015, Nicholas filed an appeal as to the denial of the 2254 petition. On
October 20, 2015, the Third Circuit denied him a certificate of appealability. (ECF No. 58).
Judge Vanaskie, writing for a three-judge panel consisting of himself and Judges Fisher and
Jordan, explained that:
The application for a certificate of appealability is denied because Nicholas has
not made a substantial showing of the denial of a constitutional right. See 28
U.S.C. § 2253(c)(2). In relation to the rulings that his claims were noncognizable, procedurally defaulted, or raised in an impermissible second or
successive petition, Nicholas cannot show that jurists of reason would find it
debatable whether the District Court was correct in its procedural ruling and
whether the petition states a valid claim of the denial of a constitutional right.
SeeSlackv. McDaniel, 529 U.S. 473,484 (2000). For instance, Nicholas’s Fourth
Amendment claims are not cognizable in a federal habeas corpus petition.
Stone v. Powell, 428 U.S. 465, 494 (1976). He also failed to state a claim based
on Miranda v. Arizona, 384 U.S. 436 (1966). See Dickerson v. United States, 530
U.S. 428, 435 (2000). Otherwise, Nicholas cannot show that jurists of reason
would debate the denial of his remaining claims. Miller-El v. Cockrell, 537 U.S.
322, 338 (2003) (citing Slack, 529 U.S. at 484); see also Strickland v.

Case: 3:13-cv-00075-WAL-GWC Document #: 69 Filed: 09/05/19 Page 6 of 23

Nicholas v. People of the Virgin Islands
Civil No. 3:13-cv-00075
Report and Recommendation
Page 6

Washington, 466 U.S. 668, 687-89 [1984]. Additionally, jurists of reason
would not debate the District Court's resolution of Nicholas’s motion for an
evidentiary hearing, see Palmer v. Hendricks, 592 F.3d 386, 392 (3d Cir. 2010],
and his motion for a transfer to another prison.
On April 18,2019, Nicholas filed the "Motion Pursuant To Fed. R. Civ. P. Rule 60(b](6],
28 U.S.C.A.". This motion is difficult to read, but the undersigned can identify a few points
that Nicholas is trying to make. First, Nicholas appears to argue that the Superior Court
lacked subject matter jurisdiction over him. To this end, he writes that the Superior Court
"issu[ed] the out-dated and unrelated federal grand jury subpoena used by the Federal
Bureau of Investigation ("FBI”] to falsely arrest petitioner without an arrest or search
warrant for lack of probably cause under 18 U.S.C.A. § 3052 and did not announce their
presence and purpose prior to illegally entering petitioner’s hotel room under 18 U.S.C.A. §
3109 ("Master Key"].” Mot. at 2. Second, Nicholas argues that he should be granted relief
because Judge Gomez who denied his 2254 petition also denied his application of a certificate
of appealability. Mot. at 2-3. Third, Nicholas asserts a claim for ineffective assistance of
counsel. Specifically, Nicholas writes that:
The FBI special agent whose name appears on the faulty subpoena as the
author, has never testified in any court proceedings as to the authenticity of
the subpoena or the FBI jurisdiction to illegally arrest petitioner without a
warrant, for lack of probable cause, which the Supreme Court of the Virgin
Islands agreed (Order and Memo, pg. 18] but refused to address because
petitioner's court-appointed counsel did not cite it, violating petitioner’s due
process and subjecting petitioner to this cruel and unusual punishment.
Petitioner's court-appointed attorney was clearly ineffective, but as officers of
the court, the judges has a duty to uphold the constitution and their oath of
office (28 U.S.C. § 453] by vacating petitioner’s wrongful convictions.

Case: 3:13-cv-00075-WAL-GWC Document #: 69 Filed: 09/05/19 Page 7 of 23

Nicholas v. People of the Virgin Islands
Civil No. 3:13-cv-00075
Report and Recommendation
Page 7

Mot. at 4-5. Nicholas’s motion also makes random accusations of bias against Judges Miller
and Gomez, though he offers no support for these accusations. See generally Mot. at 2-6.
In response, the government wrote that Nicholas’s motion was untimely, because
Rule 60(b] requires that a motion filed under that rule must be filed within a reasonable time
after the filing of the entry of judgment, order, or the date of proceeding. More than threeand-a-half years—the government argues—is not a reasonable time. Opp’n. (ECF No. 62] at
1. The government also points out the factual inaccuracy asserted regarding the certificate
of appealability. Contrary to Nicholas’s assertion that Judge Gomez addressed both the
merits of Nicholas’s petition and Nicholas’s application for a certificate of appealability, the
government points out that it was, in fact, the Third Circuit that denied Nicholas a certificate
of appealability. Id. at 2.
In reply, Nicholas asserts: (1] that claims of actual innocence, lack of subject matter
jurisdiction, and fraud upon the court have no expiration date, (2] that there is no record of
the FBI special agent authenticating the subpoenas and that an evidentiary hearing is
required so that the agent can testify, (3] that the FBI never brought him before a magistrate
judge to justify if probable cause existed to arrest him, and (4] that the Virgin Islands
Supreme Court ruled that the police "lacked probable cause" but that the court did not
formally address that issue. Reply Brief (ECF No. 63] at 1-2.
II.

STATUTORY FRAMEWORK

Case: 3:13-cv-00075-WAL-GWC Document #: 69 Filed: 09/05/19 Page 8 of 23

Nicholas v. People of the Virgin Islands
Civil No. 3:13-cv-00075
Report and Recommendation
Page 8

"The writ of habeas corpus stands as a safeguard against imprisonment of those held
in violation of the law.” Harrington v. Richter, 586 U.S. 86, 91 [2011). A habeas corpus
petition pursuant to 28 U.S.C. § 2254 is the proper mechanism for a state prisoner to
challenge the "fact or duration" of his confinement. Preiser v. Rodriguez, 411 U.S. 475, 499
(1973). As Nicholas’s conviction became final after 1996, this case is governed by the federal
habeas statute applicable to state prisoners, 28 U.S.C. § 2254, as amended by the
Antiterrorism and Effective Death Penalty Act of 1996 ("AEDPA”).
Section 2254(a) permits a federal court to entertain only those applications alleging
that a person is in state custody "in violation of the Constitution or laws or treaties of the
United States.” 28 U.S.C. § 2254(a). Errors of state law are not cognizable. Estelle v. McGuire,
502 U.S. 62, 67-68 (1991). ("[I]t is not the province of a federal habeas court to reexamine
state-court determinations on state-law questions.").
A federal district court may not grant a Section 2254 petition unless a state prisoner
has exhausted the remedies available in the state courts. See 28 U.S.C. § 2254(b)(1)(A); see
also Rosev. Lundy, 455 U.S. 509, 515 (1982); Lambertv. Blackwell, 134 F.3d 506, 513 (3d Cir.
1997). A prisoner exhausts state remedies by presenting his federal constitutional claims to
each level of the state court, including the state’s highest court, either on direct appeal or in
collateral post-conviction proceedings. See, e.g., O’Sullivan v. Boerckel, 526 U.S. 838, 847
(1999) ("requiring state prisoners [in order to fully exhaust their claims] to file petitions for
discretionary review when that review is part of the ordinary appellate review procedure in

Case: 3:13-cv-00075-WAL-GWC Document#: 69 Filed: 09/05/19 Page 9 of 23

Nicholas v. People of the Virgin Islands
Civil No. 3:13-cv-00075
Report and Recommendation
Page 9

the State”); Lambert, 134 F.3d at 513 (collateral attack in state court is not required if the
petitioner’s claim has been considered on direct appeal); Schandelmeier v. Cunningham, 819
F.2d 52, 53 (3d Cir. 1986) (explaining a state prisoner must present all of his claims to a
state's intermediate appellate court, as well as to its supreme court, before a district court
may entertain a 2254 petition).
The petitioner bears the burden of establishing exhaustion of all available state
remedies. Parker v. Kelchner, 429 F.3d 58, 62 (3d Cir. 2005). The exhaustion rule requires
the petitioner to "fairly present” the "substance" of his federal claims to the state courts
before bringing them in federal court. Picard v. O'Connor, 404 U.S. 270, 275, 278 (1971).
"Reliance on the same constitutional provision is not sufficient; the legal theory and factual
basis must also be the same." Gilmore v. Ricci, 2007 WL 3256706, at *7 (D.N.J. Nov. 2, 2007)
(citing Picard, 404 U.S. at 275); accord McCandless v. Vaughn, 172 F.3d 255, 261 (3d Cir.
1999). If the petitioner has failed to raise the issue before the state courts, but still has any
means to do so, he will be required to return to the state courts to exhaust his claims. Rose,
455 U.S. at 515.
III.

SECOND SUCCESSIVE HABEAS PETITION
Stylized as a "Motion Pursuant to Fed R. Civ. P. Rule 60(b)(6), 28 U.S.C.A.," Nicholas

asserts that he is filing the motion pursuant to Fed. R. Civ. P. 60(b)(6), 28 U.S.C. § 2253(c)(1),
28 U.S.C. § 2254, the First, Second, Fourth, Fifth, Sixth, Eighth, and Fourteenth Amendments
to the United States Constitution, and Buck v. Davis, 137 S. Ct. 759 (2017). The undersigned

Case: 3:13-cv-00075-WAL-GWC Document#: 69 Filed: 09/05/19 Page 10 of 23

Nicholas v. People of the Virgin Islands
Civil No. 3:13-cv-00075
Report and Recommendation
Page 10

will treat the motion as a Rule 60(b)(6) motion, as Nicholas more or less seeks the same relief
through the other legal vehicles under which he purports to bring this motion.
Rule 60(b)(6) provides grounds for relief from a "final judgment, order, or proceeding
for .... any other reason [not enumerated] that justifies relief.” Fed. R. Civ. P. 60(b)(6). Rule
60(b)(6) is “intended to be a means for accomplishing justice in extraordinary situations ...
and may be granted only upon a showing of exceptional circumstances." United States v.
Mote, 3:14cvl717, 2018 WL 2766656, at *1 (M.D. Pa. June 8, 2018) (internal citations and
quotations omitted). "[LJegal error without more does not justify the granting of relief under
Rule 60(b)(6)." Stokes v. DA of the Cty. OfPhila., No. 98-5182, 2013 WL 331338, at *2 (E.D.
Pa. Jan. 29, 2013) (internal quotation marks and citation omitted). Further, "[a] court need
not provide a remedy under Rule 60(b)(6) for claims of dubious merit that only weakly
establish ineffective assistance by trial or post-conviction counsel." Cox v. Horn, 757 F.3d
113,124-125 (3d Cir. 2014). Moreover,
A Rule 60(b)(6) motion is deemed a petition for writ of habeas corpus under
[28 U.S.C. Section] 2254 if the motion asserts "a federal basis for relief from a
state court’s judgment of conviction." [Gonzalez v. Crosby, 545 U.S. 524, 530
(2005)]. A Rule 60(b) motion that "seeks to add a new ground for relief or
"attacks the federal court’s previous resolution of a claim on the merits” is
deemed a petition for writ of habeas corpus. Id. at 532. ”[W]hen the Rule 60(b)
motion seeks to collaterally attack the petitioner’s underlying conviction, the
motion should be treated as a successive habeas petition.” Pridgen v. Shannon,
380 F.3d 721, 727 (3d Cir. 2004). There is a narrow exception for a Rule 60(b)
motion asserting a previous ruling precluding a merits determination was in
error (for example, a denial for such reason as a statute-of-limitations bar).
Gonzalez, 545 U.S. at 532 n.4. A Rule 60(b) motion is not, in effect, a habeas
petition if the motion attacks a ruling on a non-merits basis. Id.

Case: 3:13-cv-00075-WAL-GWC Document#: 69 Filed: 09/05/19 Page 11 of 23

Nicholas v. People of the Virgin Islands
Civil No. 3:13-cv-00075
Report and Recommendation
Page 11

Brewington v. Klopotoski, Civil Action 09-3133, 2012 WL 1071145, at *3 (E.D. Pa. March 29,
2012).
Although Nicholas devotes most of his motion to the applicability of Rule 60(b)(6), he
cursorily mentions the various other avenues of relief he seeks. However, he fails to expound
upon them, and it seems that he is referring to the same circumstances that form the basis
for his Rule 60(b)(6) argument. All of his arguments should fail for the simple reason that
they are an attempt to gain relief via a successive habeas petition. His request for relief under
Rule 60(b)(6) fails to meet the narrowly-tailored exception that would remove the motion
from the purview of second/successive habeas status; namely, a claim that the previous
ruling erroneously precluded a merits determination. From the 2015 rulings, it appears that
Judge Gomez assessed all of the claims that were raised on the merits. As such, the
undersigned concludes that Nicholas has not sufficiently alleged circumstances so
exceptional that the Court’s "overriding interest in the finality of judgments” may be
overcome. Project Mgmt. Inst., Inc. v. Ireland, 144 F. App'x 935, 938 (3d Cir. 2005) (citing
Mayberry v. Maroney, 529 F.2d 332, 337 (3d Cir. 1976)).
The undersigned should point out that Nicholas's allegations of judicial bias—had
they been substantiated or discussed at any length—might have been the kind of claims
necessary to meet the exception to filing a successive habeas petition. After all, due process
requires that trials be conducted free of actual bias as well as the appearance of bias. See In
re Murchison, 349 U.S. 133, 136 (1955). But Nicholas’s claims to this end are hardly

Case: 3:13-cv-00075-WAL-GWC Document#: 69 Filed: 09/05/19 Page 12 of 23

Nicholas v. People of the Virgin Islands
Civil No. 3:13-cv-00075
Report and Recommendation
Page 12

discussed, much less supported in the record. As to claims of bias against Judge Miller,
Nicholas simply states "[pjetitioner need not go into details as to Judge Miller's bias and
prejudice towards petitioner, as the record already reflects so. Although it is worth
mentioning that Judge Miller cited that because petitioner was suspected of making a
telephone call and checking into a hotel room under his legal name as probable cause for
petitioner’s arrest.” Mot. at 5. As to claims of bias against Judge Gomez, Nicholas writes only
that Judge Gomez denied him a certificate of appealability "in grave error” and that Nicholas
subsequently filed a judicial complaint alleging that Judge Gomez committed misconduct.
Mot. at 6.
There is a strong presumption that a judge is not biased or prejudiced. Bracy v.
Gramley, 520 U.S. 899, 909 (1997). The undersigned finds nothing in Judge Miller’s Report
and Recommendation or in Judge Gomez’s orders indicating bias towards Nicholas. On the
contrary, review of the record demonstrates that Judge Miller and Judge Gomez provided
detailed analyses of Nicholas’s arguments, which were supported by relevant portions of the
record. It appears to the undersigned that Nicholas's allegations of bias are limited to mere
disagreements with the prior rulings of the District Court and the Court of Appeals. As the
Third Circuit has recognized, however, judicial rulings alone almost never constitute a valid
basis for demonstrating bias, see, e.g., Harriott v. City of Wilkes Barre, 640 F. App’x 191, 194
(3d Cir. 2016) (citing Liteky v. United States, 510 U.S. 540, 555 (1994)), and Nicholas has not
provided additional allegations from which the undersigned could find bias. Accordingly,

Case: 3:13-cv-00075-WAL-GWC Document#: 69 Filed: 09/05/19 Page 13 of 23

Nicholas v. People of the Virgin Islands
Civil No. 3:13-cv-00075
Report and Recommendation
Page 13

the undersigned does not find judicial bias to be a basis on which Nicholas could proceed
with a second successive habeas petition.
IV.

EFFECT OF BUCK V. DAVIS ON NICHOLAS’S MOTION
Though inartfully stated by Nicholas, the undersigned will infer that Nicholas is

attempting to argue that the District Court lacked subject matter jurisdiction to adjudicate
his 2254 petition. Mot. at 2-3. To this end, Nicholas cites Buck v. Davis, 137 S.Ct. 759 (2017)
for the proposition that at the appeals stage:
[T]he only question is whether the applicant has shown that jurists of reason
could disagree with the district court's resolution of his constitutional claims
or that jurists could conclude the issues presented are adequate to deserve
encouragement to proceed further...When a court of appeals sidesteps the
COA process by first deciding the merits of an appeal, and then justifying its
denial of a COA based on its adjudication of the actual merits, it is in essence
deciding an appeal without jurisdiction.
Mot. at 3 (quoting Buck, 137 S. Ct. at 773 (2017) (internal citations omitted)).
While Nicholas accurately states one of the rules that emerged from Buck, he
misunderstands its application—at least to his case. Presumably this portion of his motion
is brought pursuant to Fed. R. Civ. P. 60(b)(1), under which Nicholas is contending that the
District Court’s prior orders must be vacated because the Court made a "mistake." Fed. R.
Civ. P. 60(b)(1). First, to the extent that Nicholas is requesting that the District Court
vacate its decision not to issue a certificate of appealability relative to its prior orders,
Nicholas misstates the facts. It was the Third Circuit—not Judge Gomez—who denied the
certificate of appealability. Therefore, the District Court’s decision as to whether to issue a

Case: 3:13-cv-00075-WAL-GWC Document #: 69 Filed: 09/05/19 Page 14 of 23

Nicholas v. People of the Virgin Islands
Civil No. 3:13-cv-00075
Report and Recommendation
Page 14

certificate of appealability is moot. The Tenth Circuit was faced with a similar predicament
in a 2006, which although prior to Buck, nonetheless illustrates this point:
[Prisoner's] attack on the district court’s denial of COA was mooted by our
denial of COA on the same claims and our dismissal of his prior appeal. A
controversy becomes moot when a court can no longer grant any effective
relief. Osborn v. Durant Bank & Trust Co. (In re Osborn), 24 F.3d 1199,1203
(10th Cir. 1994]. The COA statute permits a petitioner to address his
arguments in favor of a COA to the court of appeals, irrespective of a denial in
the district court. 28 U.S.C. § 2253(c). [Prisoner] did so, this court
considered his arguments, and it denied COA and dismissed his appeal. This
denial and dismissal divested the district court of any power to grant further,
effective relief in the form of granting him a COA as to the issues he
previously appealed and lost on. The district court should therefore have
dismissed this Rule 60(b) claim as moot.
Woodberry v. Bruce, 204 Fed.Appx. 186,189 (10th Cir. 2006). See also Whittaker v.
Capello, 2016 WL 9023010, at *1 (E.D. Mich. Dec. 7, 2016) (same) (citing Woodberry,
supra.). What the District Court might have done had it made an explicit
determination on the certificate of appealability is now irrelevant, given the Third
Circuit's decision.
Furthermore, Buck is only applicable to a court of appeals' analysis of
whether to issue a certificate of appealability. As explained in U.S. v. Cook, 2017 WL
2872369, at 2-3 (E.D. Ky. July 5, 2017):
In Buck, id., the Supreme Court clarified that appellate courts should use in
addressing requests for issuance of certificates of appealability. It concluded
that the Fifth Circuit should not have first decided the merits when
considering an application for a certificate of appealability. Instead,
appellate courts must initially resolve whether the matter presents an issue
that is fairly debatable among reasonable jurists, thus initially satisfying the
court’s jurisdictional requirement.

Nicholas v. People of the Virgin Islands
Civil No. 3:13-cv-00075
Report and Recommendation
Page 15

Until the prisoner secures a COA, the Court of Appeals may not
rule on the merits of his case. Miller-El v. Cockrell, 537 U.S. 322,
336 (2003]... The COA inquiry, we have emphasized, is not
coextensive with a merits analysis. At the COA stage, the only
question is whether the applicant has shown that "jurists of
reason could disagree with the district court’s resolution of his
constitutional claims or that jurists could conclude the issues
presented are adequate to deserve encouragement to proceed
further...’’When a court of appeals sidesteps [the COA] process
by first deciding the merits of an appeal, and then justifying its
denial of a COA based on its adjudication of the actual merits, it
is in essence deciding an appeal without jurisdiction. Id. at
336-37.
Buck, supra, at 773 (Emphasis added]. Additionally, though Judge Gomez did not explicitly
rule on whether to grant a certificate of appealability, it could be implied that he did so by
adopting Judge Miller's Report and Recommendation in which she herself recommended
such a denial. See Report and Recommendation (ECF No. 49], at 19 n.28. The undersigned
also notes that Judge Gomez dismissed Nicholas’s 2254 petition for failing to meet
exhaustion requirements "in addition to other deficiencies” (See ECF No. 53, at 3], and the
Court of Appeals appears to have based its denial of a certificate of appealability, at least in
part, on those grounds. As such, Buck is of no help to Nicholas.
V.

TIMELINESS
Even if Nicholas could show that he is an entitled to an exception to the rule barring

a second successive habeas petition, his motion would still be untimely. Rule 60(b](c](l]
states that a motion for relief under Rule 60 (b] (6] "must be made within a reasonable time.”
Fed. R. Civ. P. 60(b](c](l]. As set forth above, Judge Gomez denied both of Nicholas’s

Case: 3:13-cv-00075-WAL-GWC Document#: 69 Filed: 09/05/19 Page 15 of 23

Case: 3:13-cv-00075-WAL-GWC Document#: 69 Filed: 09/05/19 Page 16 of 23

Nicholas v. People of the Virgin Islands
Civil No. 3:13-cv-00075
Report and Recommendation
Page 16

previous motions on March 27, 2015, the Third Circuit denied Nicholas a certificate of
appealability on October 20, 2015, and, it was not until April 18, 2019 that Nicholas filed the
immediate motion. It is well-settled that this period of time is simply too lengthy to be
deemed "reasonable." See Walsh v. Krantz, 423 F. App’x 177, 180 (3d Cir. 2011) (affirming
finding that period of two years was not “reasonable time" for 60(b) purposes); Moolenaar
v. Government of Virgin Islands, 822 F.2d 1342, 1348 (3d Cir. 1987) (affirming finding that
Rule 60(b)(6) motion filed nearly two years after judgment was untimely, particularly when
"the reason for the attack upon that judgment was available for attack upon the original
judgment."); Milner v. Communication Workers, Local 13000, Civil Action No. 90-7067,1994
WL 52845, at *1 (E.D. Pa. Feb. 23,1994) (finding Plaintiff s Rule 60 Motion filed twenty-one
(21) months after judgment to be untimely, particularly because "[njothing has changed
since the judgment was entered."). Just as in Moolenaar and Milner, nothing here has
changed since the District Court entered judgment more than four years ago. As such, the
undersigned recommends that the District Court find that Nicholas has presented no
extraordinary circumstances or equitable considerations that would excuse his untimely
motion.
VI.

INEFFECTIVE ASSISTANCE OF COUNSEL
Nicholas argues that he received ineffective assistance of counsel because his court-

appointed attorney failed to challenge what Nicholas alleges was a faulty subpoena used to
procure his arrest. Mot. at 4-5.

Case: 3:13-cv-00075-WAL-GWC Document#: 69 Filed: 09/05/19 Page 17 of 23

Nicholas v. People of the Virgin Islands
Civil No. 3:13-cv-00075
Report and Recommendation
Page 17

To prevail on an ineffective assistance of counsel claim, Nicholas must show both
deficient performance and resulting prejudice. Strickland v. Washington, 466 U.S. 558
(1984). As for the "deficient” prong, a movant must show that counsel "made errors so
serious as to deprive the defendant of a fair trial, a trial whose result is reliable." Id. As for
the prejudice prong, a movant must show "there is a reasonable probability that, but for
counsel’s unprofessional errors, the result of the proceeding would have been different.” Id.
at 694.3
The movant bears the burden of establishing his ineffective assistance of counsel
claims by a preponderance of the evidence. United States v. Serrano, 798 F. Supp. 2d 634,
631 (E.D. Pa. July 18,2011) (citing Wrightv. United States, 624F.2d 557, 558 (5th Cir. 1980)).
A movant "must identify the acts or omissions of counsel that are alleged not to have been
the result of reasonable professional judgment. The court must then determine whether, in
light of the circumstances, the identified acts or omissions were outside the range of
professionally competent assistance." Strickland, 466 U.S. at 690. Judicial scrutiny of
counsel's performance is highly deferential, and a petitioner must overcome a "strong
presumption” that counsel's strategy and tactics "fall[ ] within the wide range of reasonable
professional assistance." Id. at 689. In addition, "[a]n error by counsel, even if professionally

3 A court may dispose of a claim at either prong, as there is no required order to the Strickland
inquiry. See Strickland, 466 U.S. at 697 (explaining that a court need not "determine whether counsel’s
performance was deficient before examining the prejudice suffered by the defendant as a result of the alleged
deficiencies" or "address both components of the inquiry if the defendant makes an insufficient showing on
one").

Case: 3:13-cv-00075-WAL-GWC Document#: 69 Filed: 09/05/19 Page 18 of 23

Nicholas v. People of the Virgin Islands
Civil No. 3:13-cv-00075
Report and Recommendation
Page 18

unreasonable, does not warrant setting aside the judgment of a criminal proceeding if the
error had no effect on the judgment ...Accordingly, any deficiencies in counsel’s performance
must be prejudicial to the defense in order to constitute ineffective assistance under the
Constitution.” Id. at 691-92. Thus, "[sjurmounting Strickland's high bar is never an easy
task." Padilla v. Kentucky, 559 U.S. 356, 371 (2010).
Nicholas has attempted this line of argument before—not only in the District Court—
but in the territorial court system as well. He effectively argues that the trial court erred in
denying his motion to suppress with respect to the warrantless search of his person and
hotel room. However, when Nicholas made this argument in front of the Virgin Islands
Supreme Court, he claimed only that exigent circumstances did not exist. Nicholas, 56 V.I. at
737; see United States v. Coles, 437 F.3d 361, 365 (3d Cir. 2006) ("Warrantless searches and
seizures inside someone’s home (or in this case, a hotel room) are presumptively
unreasonable unless the occupants consent or probable cause and exigent circumstances
exist to justify the intrusion"). As Nicholas did not contest the existence of probable cause,
the Virgin Islands Supreme Court "limited [its] analysis solely to application of the exigent
circumstances exception." Nicholas, 56 V.I. at 737.
Even if Nicholas’s counsel had argued that there was a lack of probable cause, the
record reflects that probable cause still would have supported Nicholas’s arrest. Thus, any
challenge that his counsel could have made regarding the subpoena—either at trial or on
appeal—would have been fruitless.

Case: 3:13-cv-00075-WAL-GWC Document#: 69 Filed: 09/05/19 Page 19 of 23

Nicholas v. People of the Virgin Islands
Civil No. 3:13-cv-00075
Report and Recommendation
Page 19

A warrantless arrest is lawful if based on probable cause.

Wright v. City of

Philadelphia, 409 F.3d 595, 601 (3d Cir. 2005]. Officers have probable cause for an arrest if
"at the moment the arrest was made ... the facts and circumstances within [the officers’]
knowledge and of which they had reasonably trustworthy information were sufficient to
warrant a prudent man in believing that [the suspect] had committed or was committing an
offense.” Beckv. Ohio, 379 U.S. 89, 91 (1964]. Here, Nicholas's arrest was based on probable
cause and thus lawful. His arrest occurred after (1] the VIPD learned that a call had been
made from Gottlieb’s cell phone to the hotel and (2] the hotel’s front desk clerk informed the
VIPD that Nicholas had checked in with a minor. Coupled with other evidence collected
following the discovery that Gottlieb had been killed, officers had probable cause for the
arrest. Because the police had probable cause to arrest Nicholas without a warrant,
Nicholas’s trial counsel had no basis for seeking the suppression of any evidence or
statements which were the product of Nicholas’s arrest. See United States v. Aldea, 450 F.
App’x 151, 152 (3d Cir. 2011] ("Counsel cannot be ineffective for failing to raise meritless
claims.”].
To the extent that Nicholas argues that the police did not have probable cause for the
evidence they seized in entering his hotel room, this argument fares no better. Warrantless
searches of a suspect’s person conducted during a lawful arrest are constitutional. See
Chimel v. California, 395 U.S. 752, 762 (1969] (”[I]t is entirely reasonable for the arresting
officer to search for and seize any evidence on the arrestee’s person in order to prevent its

Case: 3:13-cv-00075-WAL-GWC Document #: 69 Filed: 09/05/19 Page 20 of 23

Nicholas v. People of the Virgin Islands
Civil No. 3:13-cv-00075
Report and Recommendation
Page 20

concealment or destruction.”]; United States v. Davis, 726 F.3d 434, 439 (3d Cir. 2013] ("The
general rule is that a search or seizure is unreasonable ifthe police lack either probable cause
or a warrant.”] (Emphasis added]. Because the police had probable cause for the warrantless
arrest of Nicholas, the evidence seized as a consequence of that arrest—a firearm and
Gottlieb’s cell phone—were admissible, because they were concomitant with a lawful arrest.
Furthermore, both items were properly seized under the "plain view” doctrine. See Nicholas,
56 V.I. at 740 n.12 (noting "none of the evidence against Nicholas was obtained as a result of
a search of his person incident to his arrest, since Nicholas was holding the firearm in his
hand at the time the police entered [his hotel room] and ... Gottlieb's cell phone [] was not
found on Nicholas, but in plain view in the hotel room"] (alterations added]. Accordingly, as
there was no foundation to support a motion to suppress the firearm or Gottlieb's cell phone,
Nicholas’s trial counsel had no basis for seeking the suppression of this evidence.
Trial counsel also was not ineffective for failing to move to suppress the cell phone
records obtained through what Nicholas alleges was an "outdated" subpoena. Nicholas bears
the burden of proving that he has a legitimate expectation of privacy in an object such that
he can claim the protection of the Fourth Amendment in challenging the government’s
search of that object. See Rawlings v. Kentucky, 448 U.S. 98, 104-05 (1980]. Here, the
evidence showed that the cell phone in question belonged to Gottlieb—not Nicholas. An
individual has no legitimate expectation of privacy regarding the numbers she dials on her
phone. See Smith v. Maryland,AA2 U.S. 735, 744 (1979] ("When he used his phone, [the

Case: 3:13-cv-00075-WAL-GWC Document#: 69 Filed: 09/05/19 Page 21 of 23

Nicholas v. People of the Virgin Islands
Civil No. 3:13-cv-00075
Report and Recommendation
Page 21

defendant] voluntarily conveyed numerical information to the telephone company and
'exposed' that information to its equipment in the ordinary course of business. In so doing,
[he] assumed the risk that the company would reveal to police the numbers he dialed."]. If
Gottlieb would have no privacy interest in the numbers she dialed on her cell phone, the
logical extension is that Nicholas had no privacy right in the numbers he dialed on Gottlieb’s
cell phone. Accordingly, Nicholas was not prejudiced by trial counsel's alleged failure to seek
suppression of Gottlieb's cell phone records.
As such, the undersigned finds that Nicholas fails to establish that his attorney's
performance prejudiced Nicholas.4
VII.

ACTUAL INNOCENCE
A claim of "actual innocence" relates to innocence in fact, not innocence based on a

legal, procedural defect. A litigant must present evidence of innocence so compelling that it
undermines a court’s confidence in the trial's outcome of conviction, thus permitting him to
argue the merits of his claim. A claim of actual innocence requires a petitioner to show: (a]
new reliable evidence not available for presentation at the time of the challenged trial; and
(b] that it is more likely than not that no reasonable juror would have convicted the
petitioner in light of the new evidence. See House v. Bell, 547 U.S 518 (2006]; Schlup v. Delo,
513 U.S. 298, 324, 327 (1995]. Furthermore, the House Court emphasized that the gateway

4 Additionally, Nicholas’s claims for ineffective assistance of counsel were never presented on direct
appeal. Hence, these claims are also unexhausted. See Lambert, 387 F.3d at 233-34.

Case: 3:13-cv-00075-WAL-GWC Document#: 69 Filed: 09/05/19 Page 22 of 23

Nicholas v. People of the Virgin Islands
Civil No. 3:13-cv-00075
Report and Recommendation
Page 22

standard for habeas review in claims asserting actual innocence is extremely demanding and
permits review only in the "extraordinary” case. House, 547 U.S. at 536-37 (citing Schlup,
513 U.S. at 327],
In this case, Nicholas has not presented any evidence that undermines his conviction.
His claim of "actual innocence" is not based on any new evidence suggesting "innocence in
fact." Rather, Nicholas uses the "actual innocence" terminology without pointing to any
specific articulable facts that would justify invocation of the doctrine. Absent demonstration
of new reliable evidence of his factual innocence, he cannot show that it is more likely than
not that no reasonable juror would have convicted him. See House, 547 U.S. at 537 (2006);
Schlup, 513 U.S. at 327 (1995). Furthermore, Nicholas has failed to demonstrate
circumstances that would render Section 2254 an inadequate or ineffective remedy; nor
does he represent an intervening change in the laws that render non-criminal the crimes for
which he was convicted. Nicholas also fails to demonstrate any circumstances amounting to
a "complete miscarriage of justice." Consequently, the undersigned recommends that
Nicholas is not entitled to relief on his "actual innocence” claim.
VIII.

CERTIFICATE OF APPEALABILITY
Under 28 U.S.C. § 2253(c), a petitioner may not appeal from a final order in a habeas

proceeding where that petitioner’s detention arises out of his state court conviction unless
he has "made a substantial showing of the denial of a constitutional right." A petitioner
satisfies this standard by demonstrating that jurists of reason could disagree with the district

Case: 3:13-cv-00075-WAL-GWC Document #: 69 Filed: 09/05/19 Page 23 of 23

Nicholas v. People of the Virgin Islands
Civil No. 3:13-cv-00075
Report and Recommendation
Page 23

court’s resolution of his constitutional claims or that jurists could conclude that the issues
presented here are adequate to deserve encouragement to proceed further.” Miller-El v.
Cockrell, 537 U.S. 322, 327 (2003). The undersigned finds that the habeas petition is
inadequate to deserve encouragement to proceed further. The undersigned recommends
that the District Court deny a certificate of appealability, as it is unlikely that jurists of reason
would disagree with the undersigned's recommendation that Nicholas has failed to make a
substantial showing of the denial of a constitutional right.
IX.

CONCLUSION
Based upon the foregoing, IT IS HEREBY RECOMMENDED that Mitchell N. Nicholas's

"Motion Pursuant to Fed R. Civ. P. Rule 60(b)(6), 28 U.S.C.A.” (ECF No. 59) be DENIED.
Further, it is RECOMMENDED that the District Court DENY Nicholas a Certificate of
Appealability.
Any objections to this Report and Recommendation must be filed in writing within
fourteen (14) days of receipt of this notice. Failure to file objections within the specified time
shall bar the aggrieved party from attacking such Report and Recommendation before the
assigned District Court Judge. See 28 U.S.C. § 636(b)(1); LRCi 72.3

ENTER:
Dated: September 5, 2019

/s/ George W. Cannon. Ir.
GEORGE W. CANNON, JR.
MAGISTRATE JUDGE

